      Department of Homeland Security





      FEMA Public Assistance Grant Funds Awarded to
              County of El Dorado, California




DS-12-11                                         July 2012

                  ta·
                    ~"I>'1.W
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                                   Washington, DC 20528 1 www.oig.dhs.gov


                                        JUl       3 20\2

MEMORANDUM FOR:                      Nancy Ward
                                     Regional Administrator, Region IX
                                     Federal Emergency Management Agency

FROM:                                D. Michael Bear L     '
                                     Assistant Inspe ~.'" Gen~
                                                              ~
                                                            ' L'/
                                                              '"            ./i..---

                                     Office of Emergency Management Oversight

SUBJECT:                             FEMA Public Assistance Grant Funds Awarded to
                                      County 0/ EI Dorado, California
                                     FEMA Disaster Number 1628-DR-CA
                                     Audit Report Number 05-12-11

We audited Public Assistance (PA) grant funds awarded to the County of EI Dorado,
California (County), Public Assistance Identification Number 017-99017-00. Our audit
objective was to determine whether the County accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to Federal regulations
and FEMA guidelines.

The County received a PA award of $3 .7 million from the California Emergency
Management Agency {Cal EMA),l a FEMA grantee, for debris removal, emergency
protective measures, and permanent repairs to facilities damaged as a result of flooding
that occurred from December 17, 2005, through January 3,2006. The award provided
                                                            2
75 percent FEMA funding for 5 large and 16 small projects. The audit covered the
period from December 17,2005, to January 9, 2009. 3 We audited four large projects
and two small projects totaling $3.3 million, or 92 percent of the total award (see
Exhibit, Schedule of Audited Projects).
                                                  ,
We conducted this performance audit between August 2011 and April 2012 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain suffiCient, appropriate eVidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence

1 At the time of the disaster, the grantee's name was the Governor's Office of Emergency Services, which
became part of Cal EMA on January 1, 2009.
2 Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.
3 January 9, 2009, denotes the date of County of EI Oora do's_programmatic closure by FEMA.
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit applying the statutes, regulations, and FEMA
   policies and guidelines in effect at the time of the disaster.

   We discussed issues related to this audit with FEMA, Cal EMA, and County officials;
   reviewed judgmentally selected project costs (generally based on dollar value); and
   performed other procedures considered necessary to accomplish our objective. We did
   not assess the adequacy of the County’s internal controls applicable to grant activities
   because it was not necessary to accomplish our audit objective. We did, however, gain
   an understanding of the County’s method of accounting for disaster-related costs and
   its procurement policies and procedures.


                                           RESULTS OF AUDIT

   Of the $3.3 million we reviewed, the County did not comply with Federal grant
   regulations and FEMA guidelines to award a contract totaling $2.2 million, nor did it
   ensure the reasonableness of the contract price. Additionally, the County can improve
   record keeping for procurement activities.

   Finding A – Procurement by Noncompetitive Proposal

   The County awarded a construction contract for road repairs under Project 34, totaling
   $2.2 million, using a noncompetitive proposal4 not allowed under Federal procurement
   criteria. In addition, the County did not perform a cost or price analysis to ensure the
   reasonableness of the contract price.5

   Federal procurement standards at 44 CFR 13.36 require the County to—

       •	 Conduct all procurement transactions in a manner providing full and open
          competition consistent with Federal regulation standards. (13.36(c)(1))

       •	 Award contracts by noncompetitive proposals only if awarding a contract is
          infeasible under small purchase procedures, sealed bids, or competitive
          proposals, and one of the following circumstances applies—

   4
     Per 44 CFR 13.36(d)(4), procurement by noncompetitive proposals is procurement through solicitation of
   a proposal from only one source (i.e., sole-source), or after solicitation of a number of sources when
   competition is determined inadequate.
   5
     The County should have been aware of the procurement requirements because it had applied for and
   received PA funding in 1997 for FEMA disaster 1155-DR-CA.


www.oig.dhs.gov                                       2                                       	      DS-12-11
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


                   (a) The item is available only from a single source;
                   (b) The public exigency or emergency for the requirement will not permit a
                   delay resulting from competitive solicitation;
                   (c) The awarding agency authorizes noncompetitive proposals; or
                   (d) After solicitation of a number of sources, competition is determined
                   inadequate. (13.36(d)(4)(i)(A)-(D)) (see also FEMA 322, October 1999, p. 39)

          •	 Perform a cost analysis in connection with every procurement action. A cost
             analysis is necessary when adequate price competition is lacking, and for sole-
             source procurements, including contract modifications or change orders, unless
             price reasonableness can be established on other bases mentioned in 44 CFR
             13.36(f)(1). A price analysis will be used in all other instances to determine the
             reasonableness of the proposed contract price. (13.36(f)(1))

   FEMA may grant exceptions to Federal procurement requirements to subgrantees on a
   case-by-case basis. (13.6(c))

   On January 5, 2006, the County declared a local state of emergency. This was followed
   by the County’s determination to dispense with competitive bidding (January 10, 2006),
   asserting that the emergency would not permit delays resulting from competitive
   solicitation of bids, and that immediate action was necessary to stabilize the damaged
   roads. Project records, however, indicate that the County did not take immediate action
   to secure the services of a contractor for Project 34. Rather, the County signed and
   executed the contract, valued at $1,575,321 (final contract cost totaled $2,183,613,
   including contract change orders for additional repair work) to stabilize and repair the
   damaged road on March 9, 2006, almost 2 months after its decision to dispense with
   competitive bidding. The competitive bidding process took 10 days or less to complete
   for two other road repair contracts6 that the County awarded 2 and 5 months,
   respectively, after its decision to dispense with competitive bidding for Project 34.

   We asked County officials to explain why the construction contract for Project 34 was
   not procured through full and open competition. They said that the competitive bidding
   process generally took up to 4 months and would have delayed the completion of the
   repairs and critical access to the road. In a letter to our office, dated April 19, 2012,7 the
   County explained that the sole-source contract was awarded to the same contractor
   hired to complete a FEMA-funded debris removal project, with the work being in the
   same general vicinity as Project 34. The County also explained that the contractor had


   6
       Projects 490 and 492.

   7
       The County provided this letter following the audit exit conference that took place on April 4, 2012. 



www.oig.dhs.gov                                            3                                         	       DS-12-11
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   recently completed other projects for the County and had demonstrated the skills
   necessary to complete the permanent repairs required for Project 34.

   County records, however, do not include documented evidence to justify sole-source
   contracting and in some instances contradict County officials’ assertions. The records
   further indicate that competitive procurement could have been done in an expeditious
   manner. Three days following the disaster, on January 6, 2006, the County visited the
   damaged area, accompanied by a geotechnical consultant and a civil engineer
   consultant. County records also indicate that several contractors visited the site prior to
   the County’s decision to dispense with competitive bidding—including the contractor
   that was awarded the sole-source contract for Project 34.

   According to officials, the County invited contractors to inspect the disaster damage in
   an effort to obtain their technical expertise and recommendations on constructability.
   Thus, about 2 months prior to awarding the sole-source contract, the County collected
   information that would have facilitated competitive procurement. In addition, on
   February 6, 2006, more than a month before it executed the contract, the County had
   substantially completed schematic drawings and a geotechnical engineering study that
   detailed the scope of the repairs. Further, County procurement records indicate that
   the competitive bidding process for the other two FEMA-funded road repair projects
   took approximately 10 days to complete. As a result, we concluded that the County had
   sufficient time to competitively procure the disaster work for Project 34, which
   ultimately cost nearly $2.2 million. Figure 1 depicts the completed work for Mosquito
   Road.




                          Figure 1: Project-34, Mosquito Road – Repair
                  Source: Office of Inspector General site visit (August 24, 2011)


www.oig.dhs.gov                                  4                                       DS-12-11
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   Additionally, even if it were necessary to award a noncompetitive contract, project
   records did not include the required documentation showing that the County performed
   a cost or price analysis for the sole-source contract. According to 44 CFR 13.36(f)(1), the
   County was required to perform a cost or price analysis to determine if the contractor’s
   proposed price was fair and reasonable. County officials told us that they determined
   that the project costs were fair and reasonable by using both FEMA-provided cost
   estimates and historical costs that the County has incurred for similar projects. With its
   April 19, 2012 letter, the County provided copies of three worksheets that it claims were
   recently located and used to perform a cost or price analysis. These worksheets were
   not in the project’s contract files we reviewed during fieldwork.

   One worksheet included a comparison of unit price items between the contractor, the
   County, and a County consultant. The worksheet identified that the contactor’s
   estimate was more than $400,000 over the estimate prepared by the County’s
   consultant. The other two worksheets included bid proposals from four contractors for
   two projects outside of El Dorado County, with work and cost estimates that were
   significantly different from those of Project 34. Because the three worksheets were not
   included in the County’s contract files for Project 34 and were undated, we could not
   determine their reliability or whether they were used for a cost or price analysis prior to
   awarding the contract, as the County asserts.

   Since the County did not follow Federal procurement requirements, we question
   $2,183,613 in ineligible contract costs associated with Project 34. County officials
   disagreed with our finding.

   Finding B – Procurement Documentation

   We determined that the County can improve its record keeping for disaster-related
   procurement activities. Although more than 2 years have passed since FEMA
   programmatically closed the County’s grant on January 9, 2009, some procurement-
   related records either were not available or included incomplete information. This
   occurred because Cal EMA did not monitor the County’s procurement activities to
   ensure that adequate historical documentation was maintained to support the County’s
   compliance with Federal requirements for FEMA-funded projects.

   Federal regulations at 44 CFR 13.36 (b)(9) require the County to maintain sufficient
   records to detail the significant history of procurement, including its rationale for
   contractor selection and basis for the contract price.




www.oig.dhs.gov                                 5                                          DS-12-11
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   The 2005–2006 State Administration Plan requires Cal EMA to ensure that disaster
   applicants maintain project documentation in a centralized location so that State and
   Federal representatives can monitor the applicant’s project activities, and to provide
   subgrantees with the information necessary for compliance with generally accepted
   accounting principles, procurement processes, documentation retention, and
   contracting issues.

   Cal EMA officials explained that, as part of their monitoring and project closeout
   process, they generally do not review the applicant’s procurement records, and
   therefore could not comment on the issues we identified.


                                     RECOMMENDATIONS

   We recommend that the FEMA Region IX Administrator:

   Recommendation #1: Disallow $2,183,613 (Federal share $1,637,710) in ineligible
   Project 34 costs that were not procured in accordance with Federal procurement
   requirements, unless FEMA decides to grant an exception for all or part of the costs as
   provided for in 44 CFR 13.6(c) and Section 705(c) of the Robert T. Stafford Disaster Relief
   and Emergency Assistance Act, as amended (finding A).

   Recommendation #2: Instruct Cal EMA to provide the additional guidance emphasizing
   that subgrantees must follow Federal procurement standards at 44 CFR 13.36 when
   procuring contracts for FEMA projects, or risk losing Federal funding (finding A).

   Recommendation #3: Instruct Cal EMA to provide additional guidance emphasizing that
   subgrantees need to take the steps necessary to ensure that procurements funded by
   FEMA PA grant awards are supported with sufficient documentation that outlines
   compliance with Federal procurement regulations (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of this audit with County officials during our audit, and have
   included their comments in this report, as appropriate. We also provided written
   summaries of our findings and recommendations in advance to the County on March 30,
   2012; to Cal EMA on April 3, 2012; and to FEMA on April 26, 2012. We discussed these
   findings and recommendations at exit conferences held with Cal EMA and County
   officials on April 4, 2012. County officials disagreed with the findings. We allowed a
   2-week period for the County to provide supporting documentation in support of its


www.oig.dhs.gov                                6                                         DS-12-11
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   assertions. The County provided additional documentation on April 10 and April 19,
   2012. As a result, we adjusted questioned costs and have included the County’s
   comments in the report, as appropriate. FEMA and Cal EMA officials withheld further
   comment until after we issue our final report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination. Significant contributors to this
   report were Humberto Melara, Louis Ochoa, Renee Gradin, Gregory Suko, Elizabeth
   Finn, and Paul Sibal.

   Should you have questions concerning this report, please contact me at (202) 254-4100
   or Humberto Melara at (510) 637-1463.


   cc: 	   Audit Liaison, FEMA Region IX
           Administrator, FEMA
           Audit Liaison, FEMA (Job Code G-11-053-EMO-FEMA)
           Audit Liaison, DHS




www.oig.dhs.gov                              7                                 	     DS-12-11
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                                                           EXHIBIT


                                 Schedule of Audited Projects 

                             December 17, 2005, to January 9, 2009 

                                County of El Dorado, California 

                              FEMA Disaster Number 1628-DR-CA 




                                    Project      Project     Questioned
                        Project     Award       Charges         Costs
                        Number     Amount      Reviewed      (Finding A)
                           34     $2,696,044   $2,696,044    $2,183,613
                          490        333,535      333,535
                          492        132,223      132,223
                         1837         74,517        74,517
                         30798        50,000        50,000
                         34008        56,532        56,532
                         Total    $3,342,851   $3,342,851     $2,183,613




   8
       Small project.


www.oig.dhs.gov                                8                              DS-12-11
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or fax it
directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
